No. 19-783

In the Supreme Court of the United States
________________

NATHAN VAN BUREN,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
________________

On Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
________________

BRIEF OF AMICUS CURIAE DIGITAL JUSTICE
FOUNDATION IN SUPPORT OF AFFIRMANCE
________________

Andrew Grimm
DIGITAL JUSTICE
FOUNDATION
15287 Pepperwood
Drive
Omaha, NE 68154
(531) 210-2381
Gregory Keenan
DIGITAL JUSTICE
FOUNDATION
81 Stewart Street
Floral Park, NY 11001
(516) 633-2633
September 3, 2020

Edward F. Cunningham
Counsel of Record
LAW OFFICES OF EDWARD F.
CUNNINGHAM
62 Cambridge Avenue
Garden City, NY 11530
(516) 328-3705
ed@edcunninghamlaw.com
Counsel for Amicus Curiae

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ....................................... ii
INTEREST OF AMICUS CURIAE ............................ 1
SUMMARY OF ARGUMENT .................................... 2
ARGUMENT ............................................................... 4
I.

THE INTERNET’S GROWING PREVALENCE SINCE
1986 MAKES THE ACT’S PROTECTIONS MORE
IMPORTANT, NOT LESS SO..................................... 4

II. AN AGENCY APPROACH SUPPORTS
AFFIRMANCE ON THE NARROW GROUNDS THAT
AGENTS LOSE AGENCY-BASED ENTITLEMENTS
WHEN THEY UNDERTAKE EGREGIOUS ACTS
THAT TERMINATE THEIR AGENCY. ......................... 9
III. THE PROPOSED AGENCY APPROACH AVOIDS
THE POLICY CATASTROPHES THAT PETITIONER
AND AMICI FEAR. ................................................. 16
A. The proposed agency approach avoids
criminalizing innocuous violations of
workplace web-browsing policies. .............. 16
B. The proposed agency approach avoids
criminalizing trivial breaches of
websites’ terms of service. .......................... 20
CONCLUSION ......................................................... 23

ii
TABLE OF AUTHORITIES
Cases
Cadet v. Fla. Dep’t of Corr.,
853 F.3d 1216 (11th Cir. 2017).............................. 13
Carpenter v. United States,
138 S. Ct. 2206 (2018). ......................................... 5, 6
Cmty. for Creative Non-Violence v. Reid,
490 U.S. 730 (1989). ............................................... 15
Cmty. for Creative Non-Violence v. Reid,
846 F.2d 1485 (D.C. Cir. 1988). ............................. 15
Holland v. Florida,
560 U.S. 631 (2010).......................................... 13, 19
Maples v. Thomas,
565 U.S. 266 (2016). ......................................... 13, 14
Riley v. California,
573 U.S. 373 (2014). ............................................. 5, 6
United States v. Markiewicz,
978 F.2d 786 (2d Cir. 1992). .................................. 11
United States v. Valle,
807 F.3d 508 (2d Cir. 2015). .................................. 20
United States v. Van Buren,
940 F.3d 1192 (11th Cir. 2019).............................. 20
Whitney Inv. Co. v. Westview Dev. Co.,
273 Cal. App. 2d 594 (1969). ................................. 22
Statutes
18 U.S.C. § 1030. .......................................... 10, 17, 18
Computer Fraud and Abuse Act of 1986, Pub.
L. No. 99-474, 100 Stat. 1213. ................................. 4

iii
Other Authorities
Restatement (Second) of Agency .............................. 15
S. Rep. No. 99-432, at 14 (1986) ................................. 5

1
INTEREST OF AMICUS CURIAE 1
The Digital Justice Foundation is a 501(c)(3) nonprofit dedicated to preserving individual rights in digital spaces. The Foundation has particular interest in
the impact of digital technologies on civil liberties,
personal privacy, individual intellectual-property
rights, and individual economic well-being. The
Foundation has particular concern for underrepresented users, artists, creators, employees, and innovators, especially those with limited access to law.
The Foundation writes as amicus curiae because
it believes that there is a threshold matter of whether
Petitioner had any entitlement whatsoever. If this
Court addresses whether Petitioner had any entitlement whatsoever on the basis of agency law—and the
clear rebuke by Petitioner of his agency relationship
that was the underlying basis for any claim of entitlement to access a law-enforcement database—it can affirm on narrow grounds. It can, with fidelity to the
text and its purpose, thread the needle between
providing legal recourse for egregious violations of
rights while avoiding the policy catastrophes that so
concern many of Petitioner’s amici.

1

No counsel for any party authored this Brief in whole or in
part, and no person or entity other than the amicus, its members, or its counsel made a monetary contribution intended to
fund the Brief’s preparation or submission. All parties have consented to the filing of this Brief.

2
SUMMARY OF ARGUMENT
The Foundation writes as amicus curiae because it
believes that the other Briefs present a false binary—
between either wholesale gutting the statute’s ability
to punish the most egregious betrayals by corporate
insiders or opening Pandora’s Box to gross abuses of
power by federal prosecutors to imprison whomever
they want for innocuous, everyday acts of online behavior.
If those were the only two options, the Foundation
would be writing on the other side. It would urge this
Court not to put its imprimatur on something like
that. Yet the Foundation believes that agency law
presents narrow grounds for affirming criminal liability for egregious violations while assuaging concerns
of policy catastrophes. We believe that hewing to
agency law’s longstanding principles offers a route to
punish treacherous former agents without criminalizing broad swathes of American society.
What’s presented is undoubtedly an important issue. Indeed, the growth of the Internet and its imposition into all facets of everyday life make Internetlaw cases highly important, as this Court has astutely
observed before. Petitioner’s amici are right to
acknowledge that the digitalization of the economy
and all aspects of life makes this case highly important. Yet, that importance does not support their
position. The growing importance of online interactions justifies the need for statutes to establish norms
online—through well-tailored civil and criminal sanctions. That’s why Congress has repeatedly expanded
the Act at issue as the Internet has grown.

3
The Foundation believes that a narrow affirmance
based on agency law is the best way forward. In fact,
this Court could establish an agency-based rule here
that holds Petitioner accountable while avoiding
criminalizing vast swathes of American society. It is
Petitioner’s loss of his status as an agent based upon
egregious acts against his employer’s interest that explains why he was not entitled to access the database
when he did. Applying this approach would faithfully
apply the text, fulfill its purpose, avoid outrageous
consequences, and still recognize the fundamental importance of rights online.
Emphatically, most Americans do not betray their
employers. Mild deviation from corporate policy minutiae does not abrogate agency relationships ipso
facto. By contrast, Petitioner-style violations certainly do—beyond a reasonable doubt. Thus, this
Court can affirm on the narrow grounds of agency—
distinguishing trivial violations of a human-resources
policy handbook from genuine and egregious betrayals of employers’ interests.
For these reasons, the Foundation respectfully
submits this Brief as amicus curiae and urges that
this Court affirm on the narrow ground of agency.

4
ARGUMENT
I.

THE INTERNET’S GROWING PREVALENCE SINCE
1986 MAKES THE ACT’S PROTECTIONS MORE
IMPORTANT, NOT LESS SO.

1. In 1986, Congress enacted the key defined
phrase at the heart of this appeal: “exceeds authorized access.” Computer Fraud and Abuse Act of 1986,
Pub. L. No. 99-474, 100 Stat. 1213. Much has
changed since 1986, but the importance of the CFAA’s
protections against unauthorized uses of computerized information remains firmly entrenched.
2. Many amici have powerfully described just how
different the world looks today as compared to 1986.
For example, one amicus points out that, in 1986,
there were merely “2,000 total networks connected
via the Internet[.]” Nat’l Assoc. Crim. Defense Lawyers Cert. Amicus Br. 8. Today, there are “nearly 50
billion network connected devices[.]” Id.
3. Without a hint of hyperbole, the Electronic
Frontier Foundation observes that “it would be difficult to go a single waking hour, let alone a single day,
without using the Internet and thereby connecting to
someone else’s computer system[.]” EFF Cert. Amicus Br. 4. Given this huge expansion of computerized
information into every corner of life, it is only natural
that the CFAA has become ranked amongst “the most
far-reaching criminal laws in the United States
Code.” Id. at 3.

5
4. But whereas these amici argue that the rise of
computer usage and the Internet cuts against the
CFAA’s value, we see it differently.
5. To us, the digitalization of all aspects of life
serve to make the CFAA’s protections all the more important. The CFAA protects both the privacy and
property interests of everyday citizens in their computerized information.
6. The CFAA’s protections reflect Congress’ efforts
“to affirm the government’s recognition of computerized information as property.” S. Rep. No. 99-432, at
14 (1986) (emphasis added). Now today, the average
citizen carries around a prodigious portfolio of such
property in her pocket: “Prior to the digital age, people
did not typically carry a cache of sensitive personal
information with them as they went about their day.”
Riley v. California, 573 U.S. 373, 395 (2014). “Now it
is the person who is not carrying a cell phone, with all
that it contains, who is the exception.” Id.
7. This Court has “recognized the ‘immense storage capacity’ of modern cell phones[.]” Carpenter v.
United States, 138 S. Ct. 2206, 2214 (2018). Indeed,
“the term ‘cell phone’ is itself misleading shorthand;
many of these devices are in fact minicomputers[.]”
Riley, 573 U.S. at 393. These minicomputers perform
a dizzying array of function, serving as “cameras,
video players, rolodexes, calendars, tape recorders, libraries, diaries, albums, televisions, maps, or newspapers.” Id.

6
8. Moreover, the deeply intimate nature of this
computerized information adds to the public interest
in having the CFAA’s protections against unauthorized uses. Today “more than 90% of American adults
who own a cell phone keep on their person a digital
record of nearly every aspect of their lives—from the
mundane to the intimate.” Riley, 573 U.S. at 395.
9. Such computerized information carries tremendous “consequences for privacy.” Id. at 394. Individuals’ smartphones and personal computers often contain “every picture they have taken[.]” Id. at 393. And
the interests in keeping this private information private are sizeable: “[t]he sum of an individual’s private
life can be reconstructed through a thousand photographs labeled with dates, locations, and descriptions[.]” Id. at 394.
10. Computerized information provides “an intimate window into a person’s life, revealing not only
his particular movements, but through them his familial, political, professional, religious, and sexual associations” as well. Carpenter v. United States, 138
S. Ct. 2206, 2217-2218 (citation omitted).
11. In short, these ubiquitous computer technologies “hold for many Americans the ‘privacies of life.’”
Riley, 573 U.S. at 403.
12. Petitioner and some of his amici think this contemporary technological milieu renders the statute
possibly “obsolete[.]” See, e.g., Petitioner’s Br. 31. In
fact, the opposite is true. Today, computerized information is a form of property owned by a far wider
class of citizens than ever before.

7
13. Such technological and social realities make
the CFAA’s protections of computerized information
unprecedentedly important to ordinary citizens. The
Act advances the public’s property rights and privacy
interests. And, the CFAA’s importance is poised to
grow. With each passing day, “every segment of our
society becomes increasingly connected[.]” Tech.
Companies Amicus 5. The continued “explosion of
personal computing devices” drives the continued
“seamless interconnection of our personal, financial,
and professional lives online.” Petitioner’s Br. 16.
14. Against this dizzying backdrop of accelerating
digital technologies enters this dispute about the
meaning and scope of the CFAA. Petitioner and his
amici worry that affirmance here would criminalize
“whole categories of otherwise innocuous behavior”
and would subject “most everyone who uses a computer” to criminal liability. Petitioner’s Br. 26-27 (citation omitted). If that were true, then we would respectfully urge this Court to reverse. We think that’s
a false binary; the text of the statute permits this
Court to apply quite ordinary principles of agency
law, to narrowly affirm, and to limit this case to similar facts showing egregious betrayal of an employer.
15. Moreover, Petitioner and his amici overlook
that ordinary citizens find themselves with interests
on both sides of this kind of dispute. Ordinary citizens
are constantly accessing and using computerized information. But they are also possessors and owners
of computerized information—an ever-growing
amount.

8
16. Importantly, affirming here on narrow
grounds would not have disastrous consequences.
Most citizens are not hackers and would never dream
of using their work computers to sabotage their employers. Most employees do not use their work computers to subvert the very purposes of their principal
or employer. Thus, the vast majority of citizens stand
to lose nothing by affirmance in cases like the one
here, if affirmed on narrow grounds of agency that require violations to reach the level of ipso facto terminating the agency relationship’s very entitlements
and leaving lesser issues outside its criminal scope.
17. Thus, this amicus brief advocates for an
agency approach to interpreting the Act’s concept of
entitlement that simultaneously enforces its text, fulfills its purpose, and avoids amici’s worries. The public interest lies decidedly in robust protections of this
computerized information—without catching innocent behaviors too.
18. Today, the computerized information that the
CFAA was designed to protect no longer rests in some
remote corner of the electronic frontier. Today, such
computerized information permeates the heartland of
everyday daily life. The CFAA is thus all the more important in this increasingly “interconnected world[.]”
See EFF Cert. Amicus 3.

9
II. AN AGENCY APPROACH SUPPORTS AFFIRMANCE
ON THE NARROW GROUNDS THAT AGENTS LOSE
AGENCY-BASED ENTITLEMENTS WHEN THEY
UNDERTAKE EGREGIOUS ACTS THAT
TERMINATE THEIR AGENCY.
1. In our view, Petitioner is correct on many points
of statutory interpretation about the scope and meaning of the key statutory words at issue: “not entitled
so to obtain[.]”
2. Nonetheless, Petitioner overlooks a threshold
issue. Even if this Court agrees with Petitioner on
nearly every issue of statutory interpretation,
longstanding principles of agency support a narrow
affirmance that Petitioner was “not entitled so to obtain” information from the Georgia Crime Information Center’s database because, before he did, he
had terminated the underlying agency relationship
upon which his entitlement to do so depended.
3. Petitioner decided to serve another—one whose
ostensible purpose was entirely antithetical to the
purpose of Petitioner’s law-enforcement role generally and database access specifically. Then, Petitioner took acts that manifested serious disloyalty to
his police department. In so doing, he himself rebuked the very role upon which his access to the database depended. And, since he did all this before he
queried the database, Petitioner was no longer entitled to query the database whatsoever. At that point
in time, he was hacking the database.

10
4. Critically, though, it’s a tall order to end an
agency relationship by acts alone. No mere frolic and
detour, nonchalance toward corporate policies, or
pure laziness will do. Instead, it’s manifestations of
directly adverse interest that cross the line.
5. Petitioner makes a number of compelling points
about the Act. For one, Petitioner is correct that the
pertinent provisions, 18 U.S.C. § 1030(a)(2), (e)(6), do
not turn on his subjective purpose at the time that he
accessed the relevant database.
6. Section 1030(a)(2) has no purpose requirement
whatsoever in its text. After scouring the U.S. Code
books, Petitioner rightfully points out that that improper-purpose requirements do, in fact, exist “elsewhere” in other Titles of the Code but are notably absent from Section 1030(a)(2), (e)(6). Petitioner’s Br.
19. We think Petitioner could have stayed closer to
home: Section 1030(c)(2)(B)(i) ups the ante by heightening criminal penalties if “the offense was committed for purposes of commercial advantage or private
financial gain[.]” 18 U.S.C. § 1030(c)(2)(b)(i) (emphasis added). As a result, this statutory inclusion of a
purpose-requirement somewhere else in the same section is indicia that the key provision here does not
turn on a mere improper purpose. Congress knew
how to use purpose requirements.
7. Furthermore, we think that the Government’s
reliance on the word “so” in “entitled so to obtain or
alter” is misplaced. See Gov’t Br. 13, 18-19. The word
“so” does not fundamentally alter the scope of liability. Rather, it plays a specifying function.

11
8. By comparison, consider how Section 1030(e)(6)
says “a computer” but then shifts to the phrase “information in the computer[.]” 18 U.S.C. § 1030(e)(6).
Notice that it does so in order to specify that the computer containing the information must be the same as
the one that was accessed. The phrase “a computer”
clarifies that it can be any computer (as defined) and,
in turn, the phrase “the computer” specifies the computer accessed must be the same one with the information in it.
9. So too with the word “so” in the phrase “entitled
so to obtain or alter[.]” See id. The word “so” has a
specifying function. The phrase “entitled so to obtain
or alter” ties the issue of entitlement back to the specific “access to obtain or alter” that preceded it. The
word “so” is how a reader knows that the access used
to obtain or alter the information and the entitlement
to undertake that access are necessarily connected.
Thus, the word so is “pivotal”—just not as the Government would like. See United States v. Markiewicz,
978 F.2d 786, 804-805 (2d Cir. 1992) (“Defined as
‘such as has been specified or suggested’, Webster's
Third New International Dictionary 2160 (1971), the
word ‘so’ […] refers back[.]”).
10. In addition, we agree with Petitioner’s astute
illustration about the hypothetical loan officer who
wishes to improperly use credit-history reports to
overzealously advertise additional services. Petitioner’s Br. 18. An ordinary speaker would not say
that the officer’s subjective purpose eliminated the
entitlement to access the information. Id.; see Cert.
Petition 17 (similar but slightly different example).

12
11. Thus, we too agree that entitlement is binary
as the statute sees it. You either have an entitlement
to use access to obtain certain information—or you
don’t. You either have the entitlement to alter certain
information in a certain way 2—or you don’t.
12. Then, there’s the issue of entitlement. At the
time he last accessed the database, Petitioner didn’t
have any entitlement to access that information.
That’s the flaw in Petitioner’s argument. On these
facts, Petitioner did not access the database for
merely “inappropriate reason[s]” or, after he got the
information, perform a “simple misuse or misappropriation of information.” Petitioner’s Br. 13, 17. Instead, his acts preceding his access rebuked the
agency relationship upon which his entitlement to access the database was entirely dependent.
13. Petitioner says the “ordinary meaning of the
word ‘entitle’ is ‘to give a right.’” Petitioner’s Br. 18.
Therefore, to Petitioner, a “person is thus ‘entitled so
to obtain’ information when she has the right, via
some prescribed manner, to acquire that information.” Id. Thus, the question is whether Petitioner

2

Notably, alteration of information is more complicated.
Generally speaking, there is only one way to obtain information
from a computer. But, there are unlimited numbers of ways to
alter a piece of information. It’s possible that an employee might
be entitled to update information, but not delete it wholesale because those are different alterations. Regardless, if employees
are entitled to update a calendar, for example, their subjective
purpose as they go about the update is not a talisman of liability.

13
had the right to acquire information from the database at the time that he did.
14. And his was no inalienable right of access to
that information. It was contingent upon his status
as an agent of the police department.
15. Although Petitioner had not formally resigned
his position, turned in his badge, or stopped receiving
his department’s payroll, he didn’t need to in order to
terminate his agency relationship: “[T]he authority of
an agent terminates if, without knowledge of the principal, he acquires adverse interests or if he is otherwise guilty of a serious breach of loyalty to the principal.” Maples v. Thomas, 565 U.S. 266, 284 (2016)
(emphasis added) (quoting Restatement (Second) of
Agency). A minor breach will not do.
16. Here, Petitioner “commit[ed] a breach of duty
[of loyalty] to his principal by acting for another in an
undertaking which has a substantial tendency to
cause him to disregard his duty to serve his principal
with only his principal’s purposes in mind.” See id.
(second set of brackets in original). Petitioner’s conduct meets the high bar of “disloyalty or renunciation
of his role, which would terminate [his] authority[.]”
See Holland v. Florida, 560 U.S. 631, 668 n.9 (2010)
(italics in original).
17. Critically, an “agent is not deemed to have
acted adversely to his principal’s interests simply because he blundered and made an unwise, negligent,
or grossly negligent mistake that harmed those interests.” Cadet v. Fla. Dep’t of Corr., 853 F.3d 1216,
1229-1230 (11th Cir. 2017). Yet Petitioner’s loss of

14
entitlement does not stem from failing to follow every
arcane rule in his department’s dusty policy rulebook.
18. Rather, Petitioner made a series of conscious
choices to take on interests that are entirely antithetical to his role as agent of a police department. Emphatically, Petitioner’s activities were not everyday
activities. Thus, affirming on the narrow ruling that
he surrendered the rights he had ex officio through his
status as a law-enforcement agent couldn’t “transform everyday activities into federal crimes[.]” Petitioner’s Br. 15.
19. Petitioner is correct that “Employer-employee
and company-consumer relationships are traditionally governed by tort and contract law.” Petitioner’s
Br. 25 (quoting Nosal). Yet, employer-employee relationships—unlike company-consumer relationships—
are also typically governed by agency law. Maples,
565 U.S. 266, 284 (“Hornbook agency law”); see also
Petitioner’s Br. 21 (“hornbook law”). Indeed, it is
agency law’s features on the “legal landscape” that
confirm it is appropriate to affirm because agency
law’s very focus is determinations of authority (apparent and actual) and entitlements thereunder. And,
the Act’s key words implicate those concepts in a way
that relates to an agent’s authorization.
20. Although they are not limited to them and a
different approach of contractual or situational authorization would apply outside of the principal-agent
context, agency law’s specific focus on these kinds of
relationships and betrayals go to the fundamentals
determining this issue.

15

21. Nor is turning to general agency law a foreign
concept in interpreting a federal statute that uses
words that implicate agency concepts. Cf. Cmty. for
Creative Non-Violence v. Reid, 490 U.S. 730, 750-751
(1989) (“To determine whether a work is for hire under the [Copyright] Act, a court first should ascertain,
using principles of general common law of agency[.]”);
cf. Cmty. for Creative Non-Violence v. Reid, 846 F.2d
1485, 1494 n.11 (D.C. Cir. 1988) (Ginsburg, J.) (same).
22. It is also important to note that terminationof-agency decisions are questions of fact that juries
must decide in particular circumstances. Thus, a determination on agency grounds is a narrow ruling and
in future cases would need to be proven beyond, as
with all jury issues in criminal cases, beyond a reasonable doubt and would be sufficiently nuanced to
turn on issues related to the sophistication of the
criminal (or civil) defendant. See Restatement (Second) of Agency § 112, Comment b (“Whether or not the
disloyalty of the agent is such that he should realize
that the principal would desire the termination of his
entire authority at once is a question of fact.” (emphasis added)).

16
III. THE PROPOSED AGENCY APPROACH AVOIDS
THE POLICY CATASTROPHES THAT PETITIONER
AND AMICI FEAR.
1. There are two animating hypothetical policy
concerns motivating Petitioner’s narrow reading of
the CFAA. The proposed agency approach to interpreting the CFAA helps assuage such worries. Indeed, this Court could use the proposed agency approach to distinguish the present case from Petitioner’s hypotheticals and affirm here, while leaving
line drawing exercises for another day Or, if it so
chooses, this Court could employ the proposed agency
approach to draw a sensible, middle-of-the-road line
that precludes Petitioner’s hypotheticals from CFAA
liability while still affirming here. The Court could either distinguish entirely based on agency grounds or
use the agency approach to draw a clear limiting principle.
A. The proposed agency approach avoids
criminalizing innocuous violations of
workplace web-browsing policies.
2. First, Petitioner raises the concern that using a
workplace computer for personal uses, such as leisure
time web-browsing at work, could lead to criminal
convictions under the CFAA. To illustrate this worry
Petitioner presents his March Madness example. Petitioner’s Br. 28. Petitioner discusses hypothetical
employees checking March Madness basketball scores
on a work computer. To Petition, such conduct would
“likely violate their employers’ policies prohibiting using ‘work computers for personal purposes.’” Id.

17
3. Petitioner alleges that “this activity is also a felony” if its reading of the CFAA is not adopted. Id. We
don’t agree.
4. Petitioner’s March Madness example would implicate the first prong of 18 U.S.C. §1030(a)(2) (“access
a computer without authorization”). However, the
present case raises an interpretive question under the
second prong of 18 U.S.C. §1030(a)(2) (“exceeds authorized access”). Whereas the first prong focuses on
authorization to a (workplace) computer, the second
prong focuses on an entitlement to information. Per
the definition of 18 U.S.C. §1030(e)(6), to exceeds authorized access “means to access a computer with authorization and to use such access to obtain or alter
information in the computer that the accesser is not
entitled so to obtain or alter.” 18 U.S.C. § 1030(e)(6).
5. Suppose an employee uses a popular sports website, say ESPN, to check basketball scores while at
work in violation of company policy. The information
obtained does not reside on the company’s computer.
Rather the information is obtained from ESPN’s
server. See Petitioner’s Br. 27 (“host server”).
6. The information is made publicly available by
ESPN to the Internet at large via ESPN’s publicly
available servers. Therefore, the avid fan checking
basketball scores is entitled to the information; the
public at large is. Fans’ obtaining of information from
ESPN servers is between them and ESPN. And,
ESPN is more than happy to have the web traffic,
even from distracted workers.

18
7. Even if checking sports scores violates the company’s internal policies, it is not the company’s information and so the company does not determine who
is or is not entitled to the information publicly available online from ESPN.
8. In short, per Section §1030(e)(6)’s definition, the
“exceeds access to authorize” prong of an 18 U.S.C.
§1030(a)(2) claim is an information-based offense.
The employee’s relationship to the proper owner of
that information (here ESPN) would determine
whether he was entitled to obtain that information.
9. If there is a CFAA claim for Petitioner’s March
Madness example it would need to lie in the first
prong of a § 1030(a)(2) claim (“access a computer without authorization”). But such a benign, commonplace
violation of workplace internet rules would not likely
automatically revoke authorization to use the workplace computer and it certainly wouldn’t do so ipso
facto under agency law. Employees of a company are
authorized to use their workplace computers and do
so as an agent of their principal. Revoking computer
access entirely could not even be assumed to be in the
principal’s interest: after all, the reason for those policies is presumably productivity. Taking away computer access would presumably harm productivity.
10. Tangential or non-productive uses of company
time are no employer’s dream, but checking sports
scores is not so antithetical to the purpose of the
agency as to result in the ipso facto revocation of
agency.

19
11. Thus, several probably insurmountable bars
would need to be cleared in order to support a conviction under the CFAA for personal web-browsing of
sport scores while at work. First, the conduct would
need to be so egregious a betrayal or so antithetical to
the principal’s purpose that it would sever the agent
relationship inherently via the conduct. That’s a high
bar. For example, to most of this Court, even an attorney’s failure to communicate in a timely fashion to a
client does not ipso facto sever the agency relationship. See Holland 560 U.S. at 668 n.9. Checking
sports scores almost assuredly wouldn’t either.
12. Second, the government would need to prove
beyond a reasonable doubt that the conduct itself severed the agent relationship as a matter of agency law.
Finally, the tacit approval and implied consent of
many bosses around the country that turn a blind eye
to—or even encourage—the cultural phenomenon of
March Madness would make it all the more unlikely
that such a situation poses any genuine cause for concern of a CFAA violation.
13. Moreover, in the civil context, a CFAA claim
would also need to prove damages of at least $5,000
resulting from the employee checking sports scores.
14. The question is whether you lost authorization
to your work computer entirely by the mere act of violating company policy to browse in the workplace.

20
B. The proposed agency approach avoids
criminalizing trivial breaches of websites’
terms of service.
15. Petitioner raises a terms of service worry. Petitioner’s Br. 28. Petitioner observes that “virtually
every public website or internet-based application
contains terms of service.” Id. Petitioner suggests
that the commonplace practice of exceeding such
terms of service could “exceed authorized access” in
violation of the CFAA, thereby criminalizing commonplace conduct.
16. As a threshold matter, such a case is entirely
distinguishable from the present case because such a
terms of service case does not involve an agency relationship, but rather a purely contractual relationship.
No matter how much time an internet user might
spend on Instagram or streaming Netflix, they do not
become an agent of that service provider and do not
owe that service provider a duty of loyalty.
17. Thus, affirming here using the proposed
agency approach, would allow affirmance on narrow
grounds without delving into the distinct issues
raised by terms of service and breach of contract
cases. 3
Also, the agency approach would address the circuit split on
how the CFAA should treat employees who exceed the scope of
permitted uses of information. See United States v. Valle, 807
F.3d 508, 525 (2d Cir. 2015); United States v. Van Buren, 940
F.3d 1192, 1197–98 (11th Cir. 2019). One amicus has suggested that these results demonstrate “indefensible inconsistencies” in how the CFAA is applied. Nat’l Assoc. Crim. Def.
3

21
18. Further, a violation of the terms of service often does not result in the automatic loss of entitlement to the information, pursuant to §1030(e)(6). For
example, Petitioner cites the eBay terms of service regarding eBay’s Duplicate listings policy. Petitioner’s
Br. 29 n. 6. But, if one reads those terms of service, it
becomes clear that a violation of these terms does not
terminate an eBay user’s entitlement to access the
eBay platform. In pertinent part, those terms of service read: “Activity that doesn't follow eBay policy
could result in a range of actions including for example: administratively ending or canceling listings,
hiding or demoting all listings from search results,
lowering seller rating, buying or selling restrictions,
and account suspension.” 4
19. In short, a violation of a term of service is not
a self-executing revocation of an entitlement to use
that service or to obtain information from that service.

Cert. Amicus 4. But where that amicus sees “indefensible inconsistencies,” an agency approach could see a nuanced difference. An agency approach allows one to distinguish between an
employee’s unauthorized browsing that merely exceeds the
scope of an employee’s authorized use—which would not revoke
an agent’s entitlement—and an employee’s unauthorized
browsing that is antithetical to the employer’s purposes—which
would sever the agent relationship and revoke entitlement as a
matter of agency law.
eBay, Duplicate listings policy, at https://perma.cc/8WTZVDHT
(emphasis added).
4

22
20. Instead, a violation of terms of service would
present breach-of-contract questions. Such a breach
would not necessarily terminate any contractual relationship between the parties. Indeed, a “breach does
not terminate a contract as a matter of course [.]”
Whitney Inv. Co. v. Westview Dev. Co., 273 Cal. App.
2d 594, 602 (1969).
21. Moreover, as a practical matter password
sharing is an open secret to companies like Netflix. If
companies turn a blind eye to password sharing, such
companies may be acquiescing or tacitly accepting
such behavior by their users even if they have language to the contrary buried in their terms of use. The
contract law significance of such practices would be a
matter of state law.
22. In short, it is not at all clear that, as a matter
of contract law, a violation of a company’s terms of
service would revoke a user’s entitlement to obtain information on that company’s website ipso facto without a specific revocation directed to the user. And
again, this Court need not wade into such contract
analysis here. The present case involves a CFAA violation in an employment context that is best dealt
with by the proposed agency law approach.

23
CONCLUSION
This Court should affirm but on the narrower
grounds that Petitioner’s acts had terminated his
agency relationship and, with it, any entitlement to
access a proprietary law-enforcement database.
Respectfully submitted,
Andrew Grimm
DIGITAL JUSTICE
FOUNDATION
15287 Pepperwood
Drive
Omaha, NE 68154
(531) 210-2381
Gregory Keenan
DIGITAL JUSTICE
FOUNDATION
81 Stewart Street
Floral Park, NY 11001
(516) 633-2633
September 3, 2020

Edward F. Cunningham
Counsel of Record
LAW OFFICES OF EDWARD F.
CUNNINGHAM
62 Cambridge Avenue
Garden City, NY 11530
(516) 328-3705
ed@edcunninghamlaw.com
Counsel for Amicus Curiae

